                                                           IG-01-043




AUDIT
                            INFORMATION TECHNOLOGY SECURITY
REPORT                       REQUIREMENTS IN NASA CONTRACTS,
                           GRANTS, AND COOPERATIVE AGREEMENTS

                                      September 28, 2001




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Acting Assistant Inspector General
for Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Acting Assistant Inspector
General for Audits. Ideas and requests can also be mailed to:

     Assistant Inspector General for Audits
     Code W
     NASA Headquarters
     Washington, DC 20546-0001



NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.


Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html


Acronyms


FAQ            Frequently Asked Questions
FAR            Federal Acquisition Regulation
GISRA          Government Information Security Reform Act
IT             Information Technology
OMB            Office of Management and Budget
PIC            Procurement Information Circular
W                                                                       September 28, 2001




TO:              A/Administrator

FROM:            W/Inspector General

SUBJECT:          INFORMATION: Information Technology Security Requirements in
                  NASA Contracts, Grants, and Cooperative Agreements
                   Report Number IG-01-043


The NASA Office of Inspector General has completed an audit of NASA compliance
with the Government Information Security Reform Act (GISRA) requirement to integrate
information technology (IT) security into contracts (that include purchase orders), grants,
and cooperative agreements. We found that the Agency has identified contracts subject
to the requirements and was making progress in incorporating IT security requirements
into contracts at two of the three Centers1 reviewed. However, Marshall had made
considerably less progress than the other two Centers. Further, NASA had not included
the applicable security requirements in its purchase orders, grants, and cooperative
agreements. As a result, the Agency lacks reasonable assurance of complying with
GISRA requirements, and NASA’s systems and information may be subject to additional
security risks

Background

GISRA requires agencies to integrate IT security into contracts, grants, and cooperative
agreements. In July 2000, the Agency directed Centers to identify contracts subject to IT
security requirements and modify applicable contracts with an IT security clause
prescribed by the NASA Federal Acquisition Regulation (FAR) Supplement. Centers
were to complete the identification and modification of applicable contracts by
December 31, 2000.




1
  The three Centers were Goddard Space Flight Center (Goddard), Lyndon B. Johnson Space Center
(Johnson), and George C. Marshall Space Flight Center (Marshall).
                                                                                        2

Recommendations

We made three recommendations related to the incorporation of IT security requirements
into applicable NASA contracts, grants, and cooperative agreements. Specifically, we
recommended that NASA establish controls and timeframes to ensure that the Centers
properly identify contracts subject to the IT security clause and modify the contracts to
incorporate the clause, where appropriate. This will help NASA identify all applicable
contracts in accordance with GISRA. We also recommended that NASA direct the
Centers to include purchase orders, grants, and cooperative agreements in their IT
security reviews. Finally, we recommended that NASA comply with GISRA by
incorporating IT security requirements in purchase orders, grants, and cooperative
agreements, where appropriate. These actions will help NASA comply with GISRA and
incorporate IT security in its applicable contracts, grants, and cooperative agreements.

Management’s Response and OIG Evaluation

Management concurred with all three recommendations. Management revised the NASA
FAR Supplement, which clarified guidance related to identification, control,
modification, and timeframes for implementation of the IT security clause. In addition,
management stated it would monitor the Centers’ progress in reviewing and
implementing the clause. Further, management stated it would emphasize to the Centers
that they must review cooperative agreements and purchase orders. Finally, management
will issue guidance to review any grants valued at $100,000 or more and that do not
expire before March 30, 2002.

Management’s actions are responsive to the recommendations. Details on the status of
the recommendations are in the findings section of the report.



[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Information Technology
 Security Requirements in NASA Contracts, Grants, and Cooperative Agreements
INFORMATION TECHNOLOGY SECURITY REQUIREMENTS IN
     NASA CONTRACTS, GRANTS AND COOPERATIVE
                  AGREEMENTS
W                                                                  September 28, 2001


TO:            H/Associate Administrator for Procurement

FROM:          W/Assistant Inspector General for Audits

SUBJECT:       Final Report on Audit of Information Technology Security
               Requirements in NASA Contracts, Grants, and Cooperative Agreements
               Assignment Number A-01-036-00
               Report Number IG-01-043


Enclosed please find the subject final report. Please refer to the Executive Summary for
the overall audit results. Our evaluation of your response has been incorporated into the
body of the report. Your comments on a draft of this report were responsive to the
recommendations. The recommendations will remain open for reporting purposes until
corrective action is completed. Please notify us when action has been completed on the
recommendations.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report please contact Mr. David L. Gandrud, Program Director,
Information Technology Program Audits, at (650) 604-2672, or Mr. Roger W. Flann,
Program Manager, at (818) 354-9755. See Appendix C for the report distribution.




[original signed by]
Alan J. Lamoreaux


Enclosure
                                                     2

cc:
AB/Associate Deputy Administrator for Institutions
AO/Chief Information Officer
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

      Finding A. IT Security Clause in Contracts, 2

      Finding B. IT Security Requirements in Purchase Orders, Grants, and Cooperative
                   Agreements, 5

Appendix A - Objectives, Scope, and Methodology, 8

Appendix B – Management’s Response, 10

Appendix C – Report Distribution, 15
                               NASA Office of Inspector General

IG-01-043                                                                        September 28, 2001
 A-01-036-00

                 Information Technology Security Requirements in
                NASA Contracts, Grants, and Cooperative Agreements

                                          Executive Summary

Background. On October 30, 2000, the President signed into law the fiscal year 2001
Defense Authorization Act (Public Law 106-398), including Title X, subtitle G,
“Government Information Security Reform” (the Security Reform Act, or GISRA). GISRA
primarily addresses the program management and evaluation aspects of security.
Specifically, GISRA requires agencies to perform annual program reviews. GISRA also
requires Inspectors General to perform annual security evaluations and to annually report the
results of reviews to OMB. 2

Objectives. Our audit objectives were to determine whether NASA contracts reference
applicable IT security requirements of GISRA, contain performance metrics requirements for
IT security, and consider IT security in award fee plans. Specifically, we determined
whether NASA had included IT security requirements, performance metrics, and award fee
plans in its contracts, purchase orders, grants, and cooperative agreements. Details of our
objectives, scope, and methodology are in Appendix A.

Results of Audit. Generally, NASA has identified contracts subject to the requirements and
was making progress in incorporating IT security requirements into contracts at two of the
three Centers reviewed. However, Marshall made considerably less progress than the other
two Centers (Finding A). Further, NASA had not included the applicable IT security
requirements in its purchase orders, grants, and cooperative agreements. Until NASA
incorporates IT security requirements into all applicable acquisition instruments, the Agency
lacks reasonable assurance of complying with GISRA requirements, and NASA’s systems
and information may be subject to additional security risks (Finding B).

NASA included IT security performance metrics in contracts and considered IT security in
award fee plans, where appropriate, at the three Centers we reviewed. Regarding
performance metrics, NASA used an IT security clause to impose GISRA requirements on
applicable contractors. Contracts that included the IT security clause referenced IT security
performance metrics. We did not review the adequacy of the IT security performance
metrics. Regarding contracts with award fee plans, NASA contracts provide for
consideration of IT security violations when determining award fees.

Recommendations. NASA should establish controls and timeframes to ensure that the
Centers properly identify contracts subject to the IT security clause and modify the contracts

2
    GISRA became effective on November 29, 2000, and expires 2 years after that date.
to incorporate the clause, where appropriate. Also, NASA should direct the Centers to
include purchase orders, grants, and cooperative agreements in their IT security reviews.
Finally, NASA should comply with GISRA by incorporating IT security requirements in
purchase orders, grants, and cooperative agreements, where appropriate.

Management’s Response. Management concurred with the report’s recommendations.
Management revised the NASA FAR Supplement, which clarified guidance related to
identification, control, modification, and timeframes for implementation of the IT security
clause. In addition, management stated it would monitor the Centers’ progress in reviewing
and implementing the clause. Further, management stated it will emphasize that cooperative
agreements and purchase orders must also be reviewed and will issue guidance to review any
grants valued at more than $100,000 or more that will continue beyond the next 6 months.

Evaluation of Management’s Response. We consider management’s comments responsive
to the recommendations.




                                              ii
Introduction

OMB’s “Guidance on Implementing the Government Information Security Reform Act” (M-
01-08, January 16, 2001) required all Federal agencies to include contractors in their IT
security implementation plan. Specifically the guidance states, “ . . . the Security Act
includes contractor systems. The Clinger-Cohen Act3 definition of information technology
includes technology 'used by the agency directly or is used by a contractor under contract to
the agency . . .'” The guidance further states that GISRA essentially codified existing
requirements of OMB Circular A-130, Appendix III, “Security of Federal Automated
Information Resources,” which required Government agencies and their contractors to
provide adequate security for information collected, processed, transmitted, stored, or
disseminated.

On July 14, 2000, NASA issued Procurement Information Circular (PIC) 00-12, "IT Security
Requirements for Unclassified Information Technology Resources; Existing and New
Contracts and Subcontracts." PIC 00-25, same title, superceded PIC 00-12 on November 29,
2000.4 The PIC’s require contracting officers to “. . . modify all existing solicitations and
contracts involving unclassified information technology (IT) resources to incorporate NFS
[NASA FAR Supplement] clause 1852.204-76 where appropriate.” The clause requires
NASA vendors to comply with the IT security requirements of NASA Policy Directive
2810.1, “Security of Information Technology,” dated October 1, 1998, and NASA
Procedures and Guidelines 2810.1, same title, dated August 26, 1999, which together
represent NASA’s guidance for implementing OMB Circular A-130, Appendix III.
According to PIC 00-12 and PIC 00-25, the contracting officer was to “. . . consult with the
requiring organization for assistance in identifying applicable contracts and solicitations, and
the extent to which the clause is applicable to all or a segment of the statement of work
requirements.” The PIC’s also require the contracting officers to incorporate these changes
into the appropriate contracts by December 31, 2000.




3
  In 1996, Congress enacted the Clinger-Cohen Act to improve the way Federal agencies acquire and manage
IT resources.
4
  PIC 00-25 clarified the applicability of the IT security clause contained in PIC 00-12.
Findings and Recommendations

Finding A. IT Security Clause in Contracts

As of May 2001, 5 months after NASA’s deadline for incorporating the IT security clause
into all applicable contracts, Goddard, Johnson, and Marshall were still negotiating IT
security requirements with some vendors. Goddard had almost completed and Johnson had
completed reviews to identify contracts subject to the clause and were making progress in
incorporating the clause in their applicable contracts. However, Marshall had completed the
review process for only 36 (18 percent) of its 202 contracts. Marshall’s delay can be
attributed to inadequate controls over the Center’s actions to implement the PIC requirements
and to other workload priorities. Until NASA includes the security clause in all applicable
contracts, the Agency lacks assurance that it meets GISRA requirements, and NASA systems
and information may be subject to additional security risks.

Agency Policies and Procedures

NASA PIC’s 00-12 and 00-25 require contracting officers to incorporate NASA FAR
Supplement 1852.204-76, also known as the IT security clause, into contracts where
applicable. The IT security clause requires contractors to comply with NASA Policy
Guidance 2810.1, which is NASA's implementing guidance for OMB Circular A-130,
Appendix III. PIC 00-12 established deadlines of August 15, 2000, for conducting reviews
to identify applicable contracts, and December 31, 2000, for incorporating the clause in the
contracts. The PIC’s require the Centers to report their progress to the Principal Center IT
Security Manager each month.5

Center Implementation of PIC 00-25

The status of actions taken by the three Centers in implementing PIC 00-25 as of May 2001,
is shown in Table 1:

                          Table 1. Implementation of PIC 00-25
                                                 Goddard           Johnson          Marshall
Total Contracts                                       297              147             202
Contracts Reviewed                                    294              147              36
Percentage of Contracts Reviewed                       99              100              18
Contacts Not Reviewed                                   3                0             166
Contracts Reviewed that Are Subject to the             92               45              20
Security Clause
Contracts with Clause Incorporated                     22               39               8
Contracts Pending Clause Incorporation                 70                6              12



Need for Controls at Marshall to Implement PIC-00-25. As indicated in the table,
Marshall had reviewed only about 18 percent of its contracts and was in the process of

5
    NASA designated Ames Research Center as its Principal Center for IT Security.

                                                       2
modifying 12 of the 20 contracts that it found to be subject to the clause. Marshall’s delays
in implementing PIC 00-12 and PIC 00-25 related to management’s lack of controls to
ensure that the Center complied with PIC requirements. For example, procurement officials
had not coordinated with the Center IT Security Manager until March 2001 to identify
contracts subject to the clause. In addition, Marshall officials told us that workload priorities
contributed to the Center’s delay in identifying all contracts subject to the IT security clause.
As of May 2001, Marshall had taken no action to review 166 contracts.

Reliance on Centers' Implementation. NASA Office of the Chief Information Officer and
the Headquarters Office of Procurement representatives indicated that they relied on the
Centers to implement PIC 00-12 and PIC 00-25 guidance. Although NASA established
controls to track implementation of the applicable contracts after the Centers identified the
contracts, NASA had no formal controls to ensure that the Centers identified all contracts
subject to the clause. As a result, the NASA Office of the Chief Information Officer and
Office of Procurement were not aware that Marshall was far behind in identifying the
applicable contracts.

Conclusion

Until NASA establishes appropriate management controls, the Agency cannot be assured that
the Centers will identify all contracts subject to the IT security clause and that the Agency
complies with GISRA requirements. Further, NASA systems or information may be subject
to additional security risks.


Recommendations, Management’s Response, and Evaluation of Response

1. The Associate Administrator, Office of Procurement, in coordination with the Chief
   Information Officer, should establish controls and timeframes to ensure that the
   Centers properly identify contracts subject to the IT security clause and modify the
   contracts to include the clause, where appropriate.

Management’s Response. Concur. Management stated that it had issued new guidance to
implement IT security requirements (NASA issued new guidance after audit field work).
Management revised various segments of the NASA FAR Supplement including 1804.470-1,
1804.470-2, 1804.470-3, 1804.470-4, and 1852.204-76. NASA also issued PIC-01-17 with
guidance on implementing the NASA FAR Supplement clause and related requirements.
The PIC addresses the OIG Recommendation. In addition, NASA’s Office of Procurement
will monitor the Centers’ progress in reviewing existing contracts




                                                3
and implementing the clause, where applicable, to assure that all Centers systematically
progress in meeting the completion date of December 31, 2001. The complete text of NASA
Headquarters response is in Appendix B.

Evaluation of Response. The actions taken by NASA are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
until agreed-to corrective actions are completed.




                                           4
Finding B. IT Security Requirements in Purchase Orders, Grants, and
Cooperative Agreements

The three Centers we reviewed had not included IT security requirements in applicable
purchase orders, grants, and cooperative agreements. This condition occurred because
NASA did not require the Centers to specifically review purchase orders to determine
whether they were subject to the security clause or to include the IT security clause in grants.
Also, NASA did not clarify the Agency’s position regarding the applicability of the clause to
cooperative agreements. Until NASA includes security requirements, as applicable, in all of
its procurement instruments, it lacks assurance that its purchase orders, grants, and
cooperative agreements comply with GISRA requirements, and NASA systems and
information may be subject to additional security risks.

Policies and Procedures

GISRA Requirements. GISRA requires Government agencies to comply with the IT
security provisions established in OMB Circular A-130, Appendix III. GISRA also applies
to contractors who develop or maintain Government-owned information. Because OMB
guidance did not address the applicability of GISRA to grants and cooperative agreements,
we asked OMB for clarification regarding the applicability issue. In June 2001, OMB
provided a written response stating that IT security provisions apply to contracts (which
include purchase orders) and to grants and cooperative agreements when those instruments
use Government resources (such as information, IT, or other equipment, personnel or other
assets). OMB also stated that if a Government program official oversees the grantee, such as
to assess whether the grant is returning any benefits, or to prevent fraud, waste, or abuse of
public funds, then the Government has the authority and responsibility to demand adequate
security.

NASA Policy. NASA policy for grants and cooperative agreements is established in NASA
Procedures and Guidelines 5800.E, "Grant and Cooperative Agreement Handbook," dated
October 19, 2000. Neither the Handbook nor any of its referenced provisions require
recipients of grants or cooperative agreements to meet specific IT security requirements,
except when the recipients handle classified data or must undergo background investigations.
To assist the Centers in determining the applicability of the IT security clause to the
cooperative agreements, NASA published guidance about IT security clause implementation
in the form of Frequently Asked Questions (FAQ’s).

Inclusion of the IT Security Clause

Purchase Orders. The three Centers we reviewed did not include the IT security clause in
applicable purchase orders. Although FAR Subpart 2.101 considers purchase orders as
contracts, PIC 00-12 and PIC 00-25 guidance did not specifically address purchase orders.
Center officials said they did not include purchase orders in the review process because
purchase orders were too numerous to review. Center officials also stated that




                                               5
purchase orders would have expired before the clause could have been inserted in the
purchase orders. As a result, none of the three Centers included purchase orders in their IT
security reviews.

We identified some purchase orders that suggested the need for an IT security clause. Table
2 contains examples of purchase orders that may be subject to the IT security clause.

  Table 2.   Purchase Order Examples Potentially Subject to the IT Security Clause
Purchase      Center    Expiratio   Purchase             Description of Work
  Order                  n Date   Order Value
 Number                           (in millions)
H32946D      Marshall 10/31/01    $6.7          IFMP* Core Financial Software
T2351W       Johnson 9/30/01      $1.0          IT Support Services
S43411G      Goddard 12/31/01     $1.3          Flight Dynamics Navigation Attitude
                                                and IT
S38657G Goddard 12/21/01          $6.7          IT Services
S36205G Goddard 8/26/02           $2.0          Multi-mission Flight Software Support
* Integrated Financial Management Program.

Until NASA includes purchase orders in the security review process, it cannot be assured
that the Agency will meet GISRA requirements. Further, the Agency’s systems and
information may experience additional security risk.

Grants and Cooperative Agreements. The three Centers we reviewed did not include IT
security requirements in applicable grants and cooperative agreements. Regarding grants,
NASA had not published guidance on the inclusion of IT security requirements. Instead,
NASA required the Centers to manage grants according to the Grant Handbook. The
Handbook, however, imposed no specific IT security requirements relating to GISRA. Also,
NASA officials said they believed that the inclusion of security requirements in grants could
have the effect of reducing the number of prospective grantees because increased restrictions
may discourage some applicants. Regarding cooperative agreements, NASA’s guidance in
the form of FAQ’s on the applicability of the clause was unclear. Specifically, the guidance
initially required the Centers to include cooperative agreements in their IT security reviews.
NASA later revised the FAQ guidance to state, as follows: “Does the clause apply to
cooperative agreements? Generally No. But Yes, but only if applicable . . . .” Lacking
appropriate guidance, none of the three Centers included grants and cooperative agreements
in their IT security reviews.

Until NASA includes IT security requirements in applicable grants and cooperative
agreements, it cannot be assured that the Agency will meet GISRA requirements. Further,
the Agency’s systems and information may experience additional security risk.




                                              6
Recommendations, Management’s Response, and Evaluation of Response

The Associate Administrator, Office of Procurement, in coordination with the Chief
Information Officer, should:

      2. Provide guidance to the Centers to include purchase orders, grants, and
cooperative agreements in their IT security reviews.

Management’s Response. Concur. Management will implement a review of existing
cooperative agreements with commercial firms for those agreements subject to anticipated
revisions to Section D of the NASA Grant and Cooperative Agreement Handbook. Management
expects to complete revisions to the Handbook in October 2001. NASA will also review existing
grants with values of $100,000 or more and do not expire within the next 6 months (March 30,
2002). NASA plans to complete its review of grants by June 30, 2002, which includes time to
create and approve the wording for grant-related IT security requirements. NASA also plans to
emphasize that Centers should include purchase orders when reviewing existing contracts. This
guidance will be included in a Web site that provides Centers with answers to FAQ’s (see
Appendix B).

Evaluation of Response. The actions taken by NASA are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
until agreed-to corrective actions are completed.

       3. Incorporate IT security requirements as required by GISRA in purchase
orders, grants, and cooperative agreements, where appropriate.

Management’s Response. Concur. NASA will include the requirement to conduct IT
security reviews in the revised Section D of the NASA Grant and Cooperative Agreement
Handbook, which the Agency anticipates publishing in October 2001 as a Proposed Rule.
NASA will also review existing grants, cooperative agreements and purchase orders to
determine IT security clause applicability (see Appendix B).

Evaluation of Response. The actions taken by NASA are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
until agreed-to corrective actions are completed.




                                              7
                Appendix A. Objectives, Scope, and Methodology

Objectives

Our objectives were to determine whether NASA contracts:
   • reference applicable IT security requirements of GISRA,
   • contain performance metrics requirements for IT security, and
   • consider IT security in award fee plans.

Scope and Methodology

We performed work at Goddard, Johnson, and Marshall. We reviewed their methodology
and criteria for identifying contracts, grants, cooperative agreements, and purchase orders
subject to the IT security clause. We examined the contract files to determine whether the
Centers added the IT security clause to their applicable contracts.

To accomplish our objectives, we performed the following:

   •   To determine how NASA identified and implemented IT security requirements, we
       interviewed officials from the NASA Office of the Chief Information Officer, NASA
       Office of Procurement, NASA Principal IT Security Clause Coordinator, Center
       representatives/coordinators for the IT security clause, Center Offices of the Chief
       Information Officer and Center IT Security Managers, and contracting officers.

   •   To obtain an understanding of IT security laws and regulations and NASA policies
       and procedures relevant to IT security, we reviewed the Government Information
       Security Reform Act (GISRA); the Government Paperwork Elimination Act, 1998;
       the Clinger-Cohen Act, 1996; the Government Performance and Results Act, 1993;
       the Computer Security Act, 1987; the Federal Managers' Financial Integrity Act,
       1982; OMB Circular A-130, Appendix III, “Security of Federal Automated
       Information Resources”; OMB Memorandum M-01-08, “Guidance on Implementing
       the Government Information GISRA”; NASA FAR Supplement Clause 1804.470,
       “Security Requirements for Unclassified Information Technology Resources”; NASA
       Policy Directive 2810.1, “Security of Information Technology”; NASA Procedures
       and Guidelines 2810.1, “Security of Information Technology”; NASA Procedures
       and Guidelines 5800.E, "Grant and Cooperative Agreement Handbook," dated
       October 19, 2000; NASA PIC 00-12 and PIC 00-25, dated July 2000 and November
       2000, respectively; NASA IT Implementation Plan for fiscal years 2001-2005; and
       NASA Procurement Management Survey Report.



                                                                                 Appendix A




                                              8
   •   To determine the population of active NASA contracts, purchase orders, grants, and
       cooperative agreements, we extracted relevant data from the NASA Financial and
       Contractual Status database for fiscal year 2001.

Management Controls Reviewed

We reviewed NASA management controls for identifying and implementing contracts
subject to the IT security clause. We considered the management controls to be adequate
except that NASA had not fully complied with all applicable IT security requirements. See
Findings A and B.

Audit Field Work

We performed the audit field work from April through June 2001. We conducted the audit in
accordance with generally accepted government auditing standards.




                                             9
Appendix B. Management’s Response




               10
     Appendix B




11
Appendix B




             12
     Appendix B




13
Appendix B




             14
                        Appendix C. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AA/Chief of Staff
AB/Associate Deputy Administrator for Institutions
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aerospace Technology
R/Chief Information Officer Representative
S/Associate Administrator for Space Science
U/Acting Associate Administrator for Biological and Physical Science
X/Acting Director, Office of Security Management and Safeguards
Y/Associate Administrator for Earth Science
Z/Acting Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, NASA Management Office, Jet Propulsion Laboratory
Acting Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
 Chief Counsel, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Acting Director, John C. Stennis Space Center




                                            15
Appendix C

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Director, Office of Management and Budget
Deputy Director of Management, Office of Management and Budget
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
   Office
Associate Director, National Security and International Affairs Division, Defense
 Acquisition Issues, General Accounting Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member - Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics


Congressional Member

The Honorable Pete Sessions, U.S. House of Representatives




                                            16
Appendix Major Contributors to the Report

David L. Gandrud, Program Director, Information Technology Program Audits

Roger W. Flann, Program Manager

Carl L. Aley, Auditor-in-Charge

Rhodora Posey, Auditor

Kenneth C. Wood, Auditor

Nancy C. Cipolla, Report Process Manager

Betty G. Weber, Operations Research Manager

Barbara J. Smith, Program Assistant
